Office of Inspector General
U.S. Department of Labor
Office of Audit



              CONTROLS OVER THE DISCLOSURE, ACCESS,
                           AND USE OF
                 SOCIAL SECURITY NUMBERS IN THE
          FEDERAL EMPLOYEES COMPENSATION ACT PROGRAM

               EMPLOYMENT STANDARDS ADMINISTRATION

                     FEBRUARY THROUGH AUGUST 2002




                                    Report Number: 03-03-002-04-001
                                    Date Issued:   December 20, 2002
                                               TABLE OF CONTENTS



ACRONYMS.......................................................................................................................... ii


EXECUTIVE SUMMARY ................................................................................................... 1


BACKGROUND .................................................................................................................... 4


OBJECTIVES, SCOPE, AND METHODOLOGY ............................................................ 7


AUDIT RESULTS, FINDINGS, AND RECOMMENDATIONS ..................................... 9

     1. The Standard Claim Forms Need to be Revised ...........................................................10

     2. A Cost-Effective Plan for Onsite Monitoring of Contractors and Other Entities
        Needs to be Implemented ............................................................................................12

     3. Controls over the Release of Records to
        Noncontractor Physicians Need to be Improved ........................................................14


AGENCY’S RESPONSE TO DRAFT REPORT ...............................................................16




U.S. DOL/OIG Audit Report 03-03-002-04-001                                                                                          i
                                    ACRONYMS



         CIO          Chief Information Officer

         DFEC         Division of Federal Employees Compensation

         DLMS         Department of Labor Manual Series

         DOL          U.S. Department of Labor

         ESA          Employment Standards Administration

         FECA         Federal Employees’ Compensation Act

         FOIA         Freedom of Information Act

         FY           Fiscal Year

         GAO          General Accounting Office

         IME          Independent Medical Examination

         OIG          Office of Inspector General

         OWCP         Office of Workers’ Compensation Program

         PCIE         President’s Council on Integrity and Efficiency

         SSA          Social Security Administration

         SSN          Social Security Number

         USC          United States Code




U.S. DOL/OIG Audit Report 03-03-002-04-001                              ii
                                 EXECUTIVE SUMMARY



The Social Security Number (SSN) was created in 1936 as a means of tracking workers’
earnings and eligibility for social security benefits. Over the years, the SSN has become a
de facto national identifier used by Federal agencies, state and local governments, and private
organizations. In recent years there have been concerns related to perceived widespread
sharing of personal information and occurrences of identity theft. Therefore, the chairman of
the House Ways and Means Subcommittee on Social Security requested the Social Security
Administration’s (SSA) Office of Inspector General (OIG) and the President’s Council on
Integrity and Efficiency (PCIE) to determine, across government, the methods Federal
agencies use to disseminate and control the SSN. The PCIE, through the SSA/OIG,
requested the OIG PCIE members to perform an audit of controls over the disclosure, access,
and use of SSNs in one of their department or agency programs.

Using instructions provided by the SSA/OIG and the PCIE, we assessed the relative risks of
improper disclosure, access, and use of SSNs for the five programs identified by DOL as
collecting the largest number of SSNs. Based on our assessment, we selected the U.S.
Department of Labor’s (DOL) Federal Employees’ Compensation Act (FECA) program for
our audit. The Employment Standards Administration’s (ESA) Office of Workers'
Compensation Programs (OWCP) administers FECA. OWCP’s Division of Federal
Employees' Compensation (DFEC) is responsible for managing FECA programs.

The overall audit objective was to assess DFEC’s management controls over the disclosure,
access, and use of SSN information by third parties. Our specific audit objectives were to
determine if DFEC: (1) has adequate controls to ensure legal and informed disclosures to
third parties; (2) has adequate controls over contractors, and other entities, who have access
and use of SSNs; and (3) has adequate controls over access to SSNs maintained in its
databases.

To perform our audit, we followed the procedures in an audit guide provided by the
SSA/OIG. To accomplish the audit we interviewed DFEC officials, reviewed policies and
procedures relevant to the audit objectives, visited the FECA central mail facility, and
considered the results of an OIG audit on general controls and security over selected financial
management systems, which included the Federal Employees’ Compensation System. The
SSA/OIG audit guide did not require, nor did our audit include, testing the effectiveness of
DFEC controls over the disclosure, access, and use of SSNs. We conducted our fieldwork
from February to August 2002.

Overall, our audit determined that management controls within the FECA program, if
followed, provide reasonable assurance that legal and informed disclosure is taking place,
and adequate controls exist over the access and use of SSNs by contractors and other entities.
Our examination of third parties’ contracts disclosed that appropriate security procedures
exist for safeguarding SSNs, and the contracts do include the Privacy Act notification. We



U.S. DOL/OIG Audit Report 03-03-002-04-001                                                       1
also determined that adequate controls exist over the access and use of SSNs in DFEC’s
automated databases.

However, we noted several opportunities for OWCP to improve existing DFEC controls over
SSNs for FECA. Specifically, we found:

   1. Standard forms used for claims do not directly associate the claimant’s signature with
      his or her acknowledgement of the Privacy Act Disclosure Statement. The multiple-
      page form requires the claimant’s signature on the first page; however, the Privacy
      Act Disclosure Statement does not appear until the last page. Since the other pages
      are completed by individuals other than the claimant, questions could be raised about
      whether the claimant was aware that disclosures of information on the form to third
      parties could occur.

   2. Limited onsite monitoring is done of contractors and other entities that have access to
      claimant files containing SSNs. Instead of onsite monitoring, DFEC relies on the
      training it provides to the contractors as part of the certification process. However,
      without sufficient onsite monitoring, DFEC cannot ensure that contractors and others
      are complying with security and disclosure requirements.

   3. DFEC is not consistently providing physicians, who do not have contracts or
      agreements with DOL, adequate notification of their responsibilities to comply with
      Privacy Act requirements when they are provided FECA claimant case files.
      Additionally, we were told about instances in which claimant files provided to
      physicians conducting independent medical examinations (referred to as Independent
      Medical Examination (IME) physicians) have either been lost or returned with
      missing documents.

To improve controls over DFEC’s use and security of SSNs, we recommend that the
Assistant Secretary for Employment Standards require OWCP to:

   1. Revise the standard claimant forms to ensure that the claimant is aware of the Privacy
      Act Disclosure Statement.

   2. Develop and implement a cost-effective, onsite monitoring program that will provide
      reasonable assurance that contractors and other entities are complying with the
      requirements for safeguarding the access and use of FECA claimants’ SSNs.

   3. Provide second opinion and IME physicians a cover letter when providing them
      claimant files or documentation, explaining in detail the physicians’ responsibility to
      comply with Privacy Act requirements.

   4. Explore the extent and cause of losses of claimant files or documents by IME
      physicians and take any necessary corrective action.




U.S. DOL/OIG Audit Report 03-03-002-04-001                                                      2
Our conclusions and recommendations are valid only with regard to the management controls
over FECA as they existed during the period of the audit, February to August 2002.
Projection of the adequacy of FECA management controls to future periods is subject to the
risk that those controls may become inadequate because of changes in conditions, or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

In response to the draft report, the Assistant Secretary for Employment Standards generally
agreed with the findings and recommendations. The recommendations can be resolved when
ESA provides the planned dates for achieving the corrective action. The entire response is
included at the end of this report




U.S. DOL/OIG Audit Report 03-03-002-04-001                                                3
                                      BACKGROUND



SSA created the SSN in 1936 as a means of tracking workers’ earnings and eligibility for
social security benefits. Over the years, the SSN has become a de facto national identifier
used by Federal agencies, state and local governments, and private organizations.
Government agencies frequently ask individuals for their SSNs to comply with applicable
laws and regulations or to efficiently track and exchange information. A number of laws and
regulations impose limitations on how agencies may use SSNs.

Due to concerns related to the perceived widespread sharing of personal information and
occurrences of identity theft, the chairman of the House Ways and Means Subcommittee on
Social Security requested the SSA/OIG and the PCIE to determine, across government, the
methods that Federal agencies use to disseminate and control the SSN. The PCIE, through
the SSA/OIG, requested OIG members of the PCIE, including DOL, to participate in an audit
of the controls over the disclosure, use, and access of SSNs. The results of the work
performed by all the OIGs that participated in this PCIE initiative will be consolidated in a
report to be issued by the SSA/OIG.

The Federal Employees' Compensation Act Program

DOL, through ESA, is charged with administering the FECA program. The Federal
Employees’ Compensation Act, 5 U.S.C. § 8101-8193 (FECA), provides compensation and
medical benefits to Federal civilian employees and their dependents for job-related injuries,
diseases, or deaths. Within ESA, OWCP’s DFEC has the responsibility for establishing
policies and procedures for the administration and operation of the FECA program. DFEC
has 12 district offices throughout the country to service FECA claimants.

FECA provides workers' compensation coverage to three million Federal and Postal workers
around the world for employment-related injuries and occupational diseases. During Fiscal
Year (FY) 2000, over 176,000 new cases were opened, and the program provided nearly
273,000 workers more than $2 billion in benefits for work-related injuries and illnesses.
According to DFEC, there were about 360,000 Federal employees’ SSNs in its computer
system at the end of calendar year 2001.

To claim benefits under FECA, an employee who sustains a work-related traumatic injury or
an occupational disease must give notice in writing on Form CA-1 or Form CA-2,
respectively. The employee or another person must forward this notice to the employer.
According to FECA procedures, it is mandatory that an injured employee provide his or her
SSN in order to receive program services.




U.S. DOL/OIG Audit Report 03-03-002-04-001                                                      4
DFEC assigns the case a primary identification number that is unique to the district office.
DFEC uses the claimant’s social security number as a secondary identifier. However,
various entities outside of DFEC (e.g., other Federal agencies, medical providers, claimants,
claimant representatives, etc.) make requests for claimant information using the claimant’s
name and SSN. The requests are made using the claimant’s SSN because it is a unique
identifier commonly used by private organizations and Federal, state, and local governments
as a method for filing records.

Six types of OWCP contractors used for the FECA program are authorized to have access to
claimants’ SSNs. The type of contractors and services they provide are:

    1. Nurses. These contractors assist claimants in person or by telephone in managing the
       claimant’s health issues.

    2. Data Entry. These contractors provide DFEC district offices with data entry
       technicians responsible for keying claimant data into various forms and files.

    3. Systems Management. These contractors are responsible for managing and
       maintaining the automated data processing system used for the FECA program.

    4. Central and Local Mail. One contractor operates the DFEC central mailroom and
       another contractor supplies staff to supplement the Federal staff at the DFEC district
       office mailrooms. The central mailroom contractor is also responsible for imaging
       claimant documents into an electronic file.

    5. Rehabilitation. OWCP has contracts with numerous vocational rehabilitation
       counselors to transition injured employees from non-working to working status.

    6. Physician Brokers. These contract physician brokers obtain physicians who provide
       second opinions to independently determine a claimant’s physical or mental status
       relating to the reported injury/illness. These second opinion physicians are not under
       contract with OWCP.

The Privacy Act and the Freedom of Information Act (FOIA) establish the framework for
restricting SSN disclosure. 1

The Privacy Act. The Privacy Act regulates the collection, maintenance, use, and
dissemination of personal information by Federal executive branch agencies. In particular,
the Privacy Act requires that Federal agencies maintaining systems of records containing
information of a personal nature and retrieving data by name, or other personal identifying
designation (e.g., SSN), establish rules of conduct for employees involved in the design,
development, maintenance, or operation of any such system.




1
    Privacy Act (5 U.S.C. § 552a) and Freedom of Information Act (5 U.S.C. § 552).


U.S. DOL/OIG Audit Report 03-03-002-04-001                                                      5
DOL’s Department of Labor Manual Series (DLMS) 5, Chapter 200, prescribes the rules of
conduct and responsibilities for DOL employees in the handling of personal information
contained in systems of records covered under the Privacy Act of 1974 that are in the custody
of the DOL, excluding Civil Service Commission personnel records.

FOIA. The FOIA generally provides that any person has a right to obtain access to Federal
agency records, except for those records that are protected from disclosure by nine stated
exemptions. Under exemption 6 of the FOIA, the government is permitted to withhold
information about individuals in “personnel and medical files and similar files the disclosure
of which would constitute a clearly unwarranted invasion of personal privacy.”

DLMS 5, Chapter 300, interprets the requirements of the FOIA, establishes uniform
procedures, and assigns responsibilities for responding to requests for records.




U.S. DOL/OIG Audit Report 03-03-002-04-001                                                       6
                       OBJECTIVES, SCOPE, AND METHODOLOGY



OBJECTIVES

The overall audit objective was to assess the extent of DFEC’s management controls over the
disclosure, use, and access of SSN information by third parties. Our specific audit objectives
were to determine if DFEC: (1) has adequate controls to ensure legal and informed
disclosures to third parties; (2) has adequate controls over contractors, and other entities, who
have access and use of SSNs; and (3) has adequate controls over access to SSNs maintained
in its databases.

SCOPE AND METHODOLOGY

We selected the FECA program for the audit based on the results of our review of the
responses to a questionnaire sent by the General Accounting Office (GAO) to DOL’s Chief
Information Officer (CIO). GAO requested information on the five largest DOL agencies
that routinely collect, maintain, and use SSNs. 2 We reviewed the responses to the GAO
questionnaire to determine which of the five programs appeared to have the highest risk of
improper disclosure, access, and use of SSNs. The five DOL programs, all administered by
ESA, were: FECA, Black Lung, Longshore, Energy Employees Occupational Illness
Compensation and Wage and Hour. The results of our work found no obvious reported
weaknesses concerning the security of SSNs for any of the five DOL programs that would
cause us to select one program over the other for audit. Therefore, we selected FECA for our
audit primarily because it was the largest of the five DOL programs that collected and used
SSNs.

The scope of our audit included assessing the procedures DFEC had in place during our
fieldwork that were relevant to the disclosure, access, and use of SSN information. We
conducted our fieldwork from February to August 2002 at the DOL National Office in
Washington, DC.

To perform our audit, we followed the procedures in an audit guide provided by the
SSA/OIG for this PCIE initiative. The PCIE SSA/OIG audit guide procedures directed us to
confirm the information provided in the CIO’s responses to the GAO questionnaires that
were relevant to the audit. Following the procedures provided in the PCIE SSA/OIG audit
guide, we:

        1. interviewed DFEC officials responsible for answering sections of the GAO
           questionnaire relevant to our audit;


2
  The questionnaire was part of a study GAO conducted on how and to what extent Federal, state, and local
government agencies use SSNs, and how these entities safeguard records or documents containing those SSNs.
GAO sent the questionnaires to 14 cabinet-level departments and four agencies.


U.S. DOL/OIG Audit Report 03-03-002-04-001                                                                   7
        2. verified and updated relevant information provided on the GAO questionnaire;

        3. obtained supporting documentation; and

        4. followed up on any vulnerabilities reported in the GAO questionnaire by DFEC
           officials.

To determine if DFEC had adequate controls over access to SSNs maintained in its
databases, we also reviewed and relied on an OIG audit report3 on general controls and
security over selected financial management systems, which included the FECA system.

The PCIE SSA/OIG audit guide did not require, nor did our audit include, testing the
effectiveness of DFEC controls over the disclosure, access, and use of SSNs.

We also performed work beyond what the PCIE SSA/OIG audit guide required. Specifically,
we:

        1. Contacted one of the DFEC district offices to obtain documentation and a detailed
           explanation of the process of disclosing SSNs to physicians responsible for
           conducting second opinions and independent medical examinations.

        2. Visited the DFEC central mail facility that is located in a commercial building in
           London, Kentucky, and operated by a contractor. Of all OWCP contractors, this
           one had the most access to SSNs. We obtained a verbal description of the process
           used to collect and destroy documents that contained SSNs, and we physically
           observed the controls in place to secure the documents.

We performed our audit in accordance with Government Auditing Standards issued by the
Comptroller General of the United States.




3
 “U.S. Department of Labor Audit of General Controls and Security for Selected Financial Systems as of
September 30, 2001, OIG Audit Report Number 23-02-002-50-598, issued March 19, 2002




U.S. DOL/OIG Audit Report 03-03-002-04-001                                                               8
            AUDIT RESULTS, FINDINGS, AND RECOMMENDATIONS


Overall, our audit determined that management controls over the disclosure, access, and use
of SSNs within the FECA program are generally adequate, but improvements can be made.
Following are the results of our audit.

   1. Management controls exist to ensure that claimants are informed that their SSNs may
      be provided to other organizations and that disclosures of SSNs to third parties are
      legal under the Privacy Act. However, we concluded this process could be improved
      by revising the standard claimant form to ensure that the FECA claimant has read the
      Privacy Act Disclosure Statement explaining the use and disclosure of the claimant’s
      SSN prior to signing the form. (See Finding Number 1.)

   2. DFEC uses six types of contractors that have access to claimant data including SSNs.
      We determined that the standard contracts and/or memoranda of understanding used
      for these contractors contain adequate language pertaining to the Privacy Act and the
      contractor’s responsibility to safeguard the data. However, DFEC monitoring of
      contractor and other entities’ disclosure, access, and use of FECA data is limited to
      entities under DFEC’s direct supervision (e.g., data entry, system management) and
      large single dwelling contracts (e.g., central mail facility). (See Finding Number 2.)

   3. FECA claimant records containing SSNs are provided to physicians who do not have
      contracts with OWCP. Our review of the process used to provide FECA claimant
      records to these physicians found that the physicians are not consistently given an
      adequate explanation of the Privacy Act requirements. Also, we were told there have
      been incidents where physicians have lost claimant records. (See Finding Number 3.)

   4. There are adequate controls over access to DFEC’s automated management
      information system. We found that access is limited to DFEC employees, other
      Federal agencies, nurses, and record imaging and data entry contractors. There are
      written agreements with these parties covering the security and use of SSNs.
      Additionally, we reviewed the report of the most recent OIG audit on the
      management information system general controls and security, which included
      DFEC. The report contained one access control finding related to periodic reviews of
      users’ accounts not being conducted on a regular basis, and inactive and revoked user
      IDs not being removed from the user directory. OWCP was in the process of
      implementing corrective action.

Our conclusions and recommendations are valid only with regard to the controls that existed
during our audit period of February through August 2002. Projection of the adequacy of the
DFEC management controls to future periods is subject to the risk that the controls may
become inadequate because of changes in conditions or deterioration of their effectiveness.

Following are the details of our findings and recommendations.



U.S. DOL/OIG Audit Report 03-03-002-04-001                                                    9
    Finding Number 1.
    The Standard Claim Forms Need to be Revised.

DFEC needs to revise the standard claim forms so that the claimant’s signature is more
directly associated with his or her acknowledgement of the Privacy Act Disclosure
Statement. The standard claim forms do not focus FECA claimants toward reading the
Privacy Act Disclosure Statement, which explains the use and disclosure of their SSNs. This
condition exists because the claimant’s signature and the Privacy Act Disclosure Statement
are found on different pages of the standard claim form, and individuals other than the
claimant complete the pages preceding the Privacy Act Disclosure Statement. Having the
signature directly associated with the Privacy Act Disclosure Statement will provide better
assurance that the claimant, and any other individual respons ible for completing the form, is
aware that their SSN may be provided to other organizations, and that disclosures of SSNs to
third parties are legal under the Privacy Act.

Three types of claims forms are used for Federal workers seeking FECA medical and/or
compensation from a work-related injury or illness. The form numbers and titles are:

          CA-1. Federal Notice of Traumatic injury and Claim for Continuation of
                Pay/Compensation

          CA-2. Notice of Occupational Disease and Claim for Compensation

          CA-5. Claim for Compensation by Widow, Widower, and/or Children

These forms each consist of three or four pages, with the Privacy Act Disclosure Statement
appearing on the last page of the document. Federal regulations 4 require that the person
submitting a claim or notice must include the SSN of the injured employee.

Our review of the above forms concluded that while they comply with the Privacy Act
requirements, the lay out of the forms does not focus the claimant’s attention beyond his/her
signature on the first page.

RECOMMENDATION

We recommend that the Assistant Secretary for Employment Standards require OWCP to
revise the standard claimant forms to focus the claimant’s attention on the Privacy Act
Disclosure Statement. This can be accomplished by inserting a line above the first data
entries, requiring the claimant (and other respondents) to read the page containing the
Privacy Act Disclosure Statement before completing any of the subsequent information.




4
    20 C.F.R § 10.100(a)


U.S. DOL/OIG Audit Report 03-03-002-04-001                                                   10
Auditee’s Response

In the response to our draft report, the Assistant Secretary for Employment Standards agreed
to revise the standard claimant forms; however, ESA cannot ensure that the claimant is aware
of the Privacy Act. Therefore, the Assistant Secretary for Employment Standards requested
that we change the wording in the recommendation from “revise the standard claimant forms
to ensure that the claimant is aware of the Privacy Act Disclosure Statement” to “revise the
standard claimant forms to focus the claimant’s attention on the Privacy Act Disclosure
Statement.”

Auditor’s Conclusion

We agreed with Assistant Secretary’s response and changed the wording in the
recommendation. The recommendation can be resolved when ESA provides the planned
dates for achieving the corrective action.




U.S. DOL/OIG Audit Report 03-03-002-04-001                                               11
 Finding Number 2.
 A Cost-Effective Plan for Onsite Monitoring of Contractors and Other Entities Needs
 to be Implemented.

DFEC monitoring of contractors’ and other entities’ use and storage of FECA data is limited
to entities under DFEC’s direct supervision (e.g., data entry, system management) and large
single dwelling contract operations (e.g., central mail facility). We found that DFEC does
not conduct any onsite monitoring of its remote site contractors (e.g., nurses, rehabilitation
counselors, and physician brokers) or other entities (e.g., second opinion and independent
medical exam physicians). DFEC officials told us that, instead of onsite monitoring, they
rely on the training they provide to the contractors. However, without adequate onsite
monitoring, DFEC cannot ensure that contractors and other entities are complying with
security and disclosure requirements.

DLMS 5, Chapter 200, Section 224a, provides the minimum standards for safeguarding
personal information from unauthorized or unintentional access, disclosure, modification, or
destruction. The DLMS requires personal information be stored in a bar- lock cabinet, safe
file, or a room secured by a double-action dead bolt lock. To the extent possible, access to
areas where personal records are stored will be limited to those persons whose official duties
require them to work in such areas. Control of personal records will be maintained at all
times and will include an accounting of their removal from the storage area. This minimum
standard is prescribed for non-duty hours as well as for duty hours.

DFEC provides SSN information on FECA claimants to its remote site contractors (e.g.,
nurses, rehabilitation counselors, and physician brokers) and other entities (e.g., second
opinion and independent medical exam physicians) that do not have contracts with OWCP.
DFEC does not physically monitor all these contractors and other entities. DFEC officials
explained that they do provide training to the contractors as part of their certification process,
and the training includes securing and protecting claimant information.

It is our opinion that the training provided to the contractors is not sufficient to ensure that
SSNs are properly safeguarded and secured from unauthorized disclosure.

RECOMMENDATION

We recommend that the Assistant Secretary for Employment Standards require OWCP to
develop a cost-effective, onsite monitoring program that will provide reasonable assurance
that contractors and other entities are complying with the requirements for safeguarding the
access and use of FECA claimants’ SSNs.




U.S. DOL/OIG Audit Report 03-03-002-04-001                                                         12
Auditee’s Response

In the response to our draft report, the Assistant Secretary for Employment Standards agreed
with the recommendation but requested that we specify that the onsite monitoring plan be
cost effective.

Auditor’s Conclusion

We agreed with Assistant Secretary’s response and changed the wording in the
recommendation. The recommendation can be resolved when ESA provides the planned
dates for achieving the corrective action.




U.S. DOL/OIG Audit Report 03-03-002-04-001                                                13
 Finding Number 3.
 Controls Over the Release of Records to Noncontractor Physicians Need to be
 Improved.

FECA claimant records containing SSNs are provided to physicians who do not have
contracts with DOL. Our review of the process used to provide FECA claimant records to
these physicians found: (1) DFEC does not consistently provide these physicians with an
adequate explanation of Privacy Act requirements; and (2) there have reportedly been
incidents in which physicians have lost FECA claimant records or documents.

According to 5 U.S.C. § 552a section 2, one purpose of the Privacy Act is to provide certain
safeguards for an individual against an invasion of personal privacy by requiring Federal
agencies, except as otherwise provided by law, to:

      Collect, maintain, use, or disseminate any record of identifiable personal
      information in a manner that assures that such action is for a necessary and
      lawful purpose, that the information is current and accurate for its intended use,
      and that adequate safeguards are provided to prevent misuse of such
      information. [Emphasis added.]

DFEC provides claimant records to two types of physicians who are not under contract with
DOL. The first type is physicians who provide second opinions on a claimant’s physical or
mental status related to the reported injury or illness. These are referred to as second opinion
physicians and they are obtained by contracted physician brokers. The second type is
physicians who perform independent medical examinations because of disputes arising from
diagnosis of the reported injury or illness. These are referred to as IME physicians and they
are obtained through a physician national directory.

Privacy Act Notification

Our audit of the process used to provide claimant records to these phys icians found that
DFEC does not consistently notify the physicians of their responsibilities under the Privacy
Act to safeguard the privacy information, such as the SSN. Although DFEC officials believe
contracted physician brokers are disclosing claimant records to second opinion physicians in
accordance with requirements of the Privacy Act, they could not provide us first- hand
knowledge of how the disclosure was being done. Additionally, we found that the cover
letter used to disseminate claimant records to IME physicians does not provide an adequate
explanation of the Privacy Act requirements.

Claimant Records

We identified a potential problem with the accountability of claimant records provided to
IME physicians. When an independent medical examination is needed, it is necessary for the
applicable DFEC district office to provide the IME physician the entire claimant case file.
The file is needed by IME physicians to assist them in reaching a conclusion on the issue of


U.S. DOL/OIG Audit Report 03-03-002-04-001                                                    14
the cause and extent of the claimant’s impairment. However, we were told by a DFEC
district office official that there have been incidents in which IME physicians have lost
claimant case files or case files were returned with missing documents.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment Standards require OWCP to:

   1. Provide second opinion and IME physicians a cover letter when providing them
      claimant files or documentation, encouraging them to comply with the principles of
      the Privacy Act.

   2. Explore the extent and cause of losses of claimant files or documents by IME
      physicians and take any necessary corrective action.

Auditee’s Response

In the response to our draft report, the Assistant Secretary for Employment Standards agreed
with the recommendations. Concerning the incidents of lost claimant files or documents by
IME physicians, the Assistant Secretary stated that DFEC has implemented case file imaging,
which will eliminate the problem. However, the extent and cause of any lost claimant files
by IME physicians will be explored, and any necessary corrective action taken.

Auditor’s Conclusion

We agreed with Assistant Secretary’s response. The recommendations can be resolved when
ESA provides the planned dates for achieving the corrective action.




U.S. DOL/OIG Audit Report 03-03-002-04-001                                                  15
                  AGENCY’S RESPONSE TO DRAFT REPORT




U.S. DOL/OIG Audit Report 03-03-002-04-001            16
